No. 21-231

In the Supreme Court of the United
States
JULIE ELLEN WARTLUFT, F/K/A JULIE
ELLEN BARTELS; FREDERICK L.
BARTELS, JR., AS ADMINISTRATORS OF
THE ESTATE OF ABRIELLE KIRA
BARTELS, DECEASED
Petitioners,
vs.
THE MILTION SCHOOL AND SCHOOL TRUST,
THE HERSHEY TRUST COMPANY, AS TRUSTEE
OF THE MILTON HERSHEY SCHOOL,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

REPLY TO RESPONSE TO PETITION FOR
A WRIT OF CERTIORARI

John W. Schmehl, Esquire
Counsel of Record
DILWORTH PAXSON LLP
1500 Market Street
Suite 3500E
Philadelphia, PA 19102
(215) 575-7200
jschmehl@dilworthlaw.com
Counsel for Petitioners

1
I. Argument
A. Evidence that Failure to Perform Chores
Can Lead to Dismissal is Contained in
the School’s Very Own Enrollment
Agreement
Petitioners, Administrators of the Estate of Abbie
Bartels, a former student of the Milton Hershey
School (the “School”), respectfully submit this Reply
to the School’s Response to Petition for a Writ of
Certiorari (the “Response”) to address misstatements
and faulty legal arguments and to cite to record
evidence in the Third Circuit refuting the School’s
unsupported claims.
The School’s objections are based almost entirely
on the Third Circuit’s factual conclusion (itself
facially erroneous) that chores required of the
School’s students to remain in residence are
mandated in a strictly charitable sense and are
educational
and
thus
cannot,
under
any
circumstances, be treated as consideration under the
FHA. This would be regardless of the magnitude of
the chores or whether the School would otherwise
need to hire housekeepers, chefs, gardeners and
groundskeepers if the students did not perform these
chores.
At pages i and 9, the Response wrongly charges
Petitioners with a material misstatement as concerns
the chore requirement. In support, the Response
argues that a student cannot be terminated from
residence for not performing chores, citing its own
student Enrollment Agreement.
However, that
Enrollment Agreement provides the opposite of what
the School claims and expressly states that refusal to
perform chores is grounds for removal.

2
The Enrollment Agreement in plain English
provides that the failure to obey rules, including
“chores,” can be grounds for dismissal. Paragraph 6
of the Agreement states the obvious in this regard.
After delineating chores as one of the rules and
policies that a child must obey, the paragraph
concludes: “You understand that failure to follow
these rules and policies will result in discipline for
your child and could lead, in the sole discretion of the
School, to your child’s dismissal.” Exhibit 7 in
Support of Motion for Summary Judgment, A443446. Thus, from the language of the very agreement
the School quotes, Abbie Bartels would have been
dismissed from residence at the School for failure to
do required chores. This is very evidence that the
School claims is lacking. The School’s position that
they may properly bar her from residence for
adolescent depression, but would not bar her if she
and she alone at the student home refused to lift a
finger to do chores, strains all credulity.
The School presents the Third Circuit’s decision
as sacrosanct and as making a proper factual finding
that chores were “more like homework, a core part of
her educational experience to prepare her for life
after school” (Response at 4). This was determined
on summary judgment, however, where the Court
should not have been the fact-finder and without any
support in the evidentiary record on this question:
the trial court reached this untenable conclusion in
an evidentiary vacuum. The Third Circuit then
based its decision in large part on counsel’s
erroneous statement during oral argument that a
student could not be expelled for failure to do chores.
The Third Circuit followed by crediting the
unsupported statement of the School’s counsel

3
during oral argument as somehow having not merely
probative but dispositive value.
With respect, this breaches multiple evidentiary
and appellate standards: counsel was hardly
qualified as the sole witness in this matter. Yet, the
decision below effectively produced that outcome.
This is clear error.
B. Failure to Follow Supreme Court
Precedent on Liberal Construction
The School also ignores the Third Circuit’s failure to
follow the liberal construction rules applicable to
civil rights cases, as if the lower court could ignore
this United States Supreme Court mandate without
consequence. However, cases that refer to this
standard have reversed lower court decisions for
failure to follow it. This should particularly be the
case where the ruling below is determined on
summary judgment. See, e.g., Trafficante v. Metro.
Life Ins. Co., 409 U.S. 205, 212 (1972) (reversing the
Ninth Circuit for its narrow interpretation of the
definition of a “person aggrieved” under the FHA).
The School also mistakenly claims that Petitioners
do not argue that the Third Circuit erred in
interpreting the definition of “renter” under Section
3604(f)(1) of the FHA. Response at 12.
However, this is precisely what Petitioners argue,
that is, that the Third Circuit erred
in finding that chores cannot be consideration to
qualify Abbie Bartels as a renter with standing
under the FHA. The Third Circuit should have
merely examined whether chores are a form of
consideration, using a liberal definition of
“recompense” or “something of value” in order to

4
allow Abbie’s Estate to have standing to enforce this
country’s civil rights laws as to housing. Instead, the
decision below decided to impose as harsh a
standard as possible on such children as Abbie
Bartels, stripping them of rights that they most need
in a manner that contravenes the remedial goals of
the FHA.
While the School complains that there is no
case directly on point on this question, it also cannot
cite such a case in support of its position. This
stalemate is another reason why this case is one
deserving of the grant of certiorari in order to
provide definitive guidance on the question of
potentially wide application to residential schools,
treatment centers, homeless shelters, or other
housing where the resident is required to “earn their
keep” by doing chores. Surely, the FHA was not
meant to exclude all these classes of citizens.
Lastly, in seeking to establish that it had
raised before the trial court what was in fact a new
argument raised for the first time at the Third
Circuit — to the effect that a student would not be
dismissed for not doing required chores — the School
cites to the lower court opinion at 2020 WL 1285332
at *7 (M.D. Pa. Mar. 18, 2020). This is a phantom
cite: the page contains no such language or factual
finding because the School never made this point
below.
C. The Merits Behind the Discrimination
Are Misstated by the School
The School distorts the nature of Petitioners’
discrimination claim in order to minimize the
importance of this case. Petitioners do not complain
that Abbie was admitted to a residential care facility

5
for short-term treatment or argue that the
assessment that she needed such an admission was
improper. On the contrary, Petitioners are focused
on Abbie being wrongly and summarily barred from
her 8th grade graduation, from a graduation party on
the School campus (both of which were the subject of
invitations to Abbie), and from all of her 9th grade
year even after being cleared to return to her normal
student life by the short-term facility. The School’s
robotic reaction prejudged young Abbie, and violated
every principle of non-discrimination. It was biased
knee-jerk punishment for a disability or perceived
disability, out of fear, and the law proscribes it.
This is not unlike the illegal conclusive
presumption that every pregnant teacher who
reaches the 5th or 6th month of pregnancy is
physically incapable of teaching and must suffer a
forced LOA that Justice Stewart found abhorrent in
Cleveland Bd. of Ed. v. LaFleur, 414 U.S. 632, 644
(1974).
In LaFleur, there was a bias toward
treating pregnant women as disabled merely as a
result of pregnancy. No assessment was made of the
womens’ abilities to perform their jobs while
carrying their children.
Here, the School just assumed that once disabled for
any period at all, Abbie was disabled for a minimum
period of 14 months, before they would even consider
her eligible for a new mental health assessment to
return to school.
Moreover, the record is clear that the School did not
and would not provide any psychological assessment
of Abbie after her short-term treatment. Dr. Herr,
Abbie’s treating psychologist at the School, testified
in his deposition that the School never made an

6
assessment of whether the School could continue to
serve Abbie’s needs after this treatment.
The
relevant part of his testimony is as follows:
Q. Turning to target goals on Page 2, target goals
as of June 14, 2013, were to determine if
Milton Hershey School is able to meet Abbie’s
high level of mental health needs; do you see
that?
A. Yes.
Q. And then it says -- well -- so, actually, as of
the 14th, that hadn’t been determined yet as of
June 14, 2013, correct?
A. What hadn’t been determined?
Q. If Milton Hershey School was able to meet
Abbie’s high level of mental health need-- that
was one of the target goals -A. Yes. Yes.
Q. Was that ever determined?
A. No.
A2108-A2109. [Herr Dep. (Higson, Ex. “7”) 213:19214:8.] The evidence demonstrating error below
could not be more compelling: this is a smoking gun
as to Defendants’ failure to satisfy even the most
rudimentary of nondiscrimination standards — and
it comes directly from the testimony of School
employee Dr. Herr, Abbie’s treating psychologist at
the School.
II. Conclusion.
The Petition should be granted for the reasons
stated therein to afford citizens like Abbie the
protections they deserve.

7
Respectfully submitted,
October 1, 2021
/s/ John W. Schmehl
John W. Schmehl, Esquire
Dilworth Paxson LLP
1500 Market Street
Suite 3500E
Philadelphia, PA 19102
Telephone: 215-575-7200
Email: jschmehl@dilworthlaw.com
Counsel for Petitioners

